<html>
<title> - ACCESS TO JUSTICE?: DOES DOJ'S OFFICE OF INSPECTOR GENERAL HAVE ACCESS TO INFORMATION NEEDED TO CONDUCT PROPER OVERSIGHT?</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                          ACCESS TO JUSTICE?:

                 DOES DOJ'S OFFICE OF INSPECTOR GENERAL

                  HAVE ACCESS TO INFORMATION NEEDED TO

                       CONDUCT PROPER OVERSIGHT?
=======================================================================


                                HEARING

                               BEFORE THE

                       COMMITTEE ON THE JUDICIARY

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 9, 2014

                               __________

                           Serial No. 113-96

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
89-704                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                       COMMITTEE ON THE JUDICIARY

                   BOB GOODLATTE, Virginia, Chairman
F. JAMES SENSENBRENNER, Jr.,         JOHN CONYERS, Jr., Michigan
    Wisconsin                        JERROLD NADLER, New York
HOWARD COBLE, North Carolina         ROBERT C. ``BOBBY'' SCOTT, 
LAMAR SMITH, Texas                       Virginia
STEVE CHABOT, Ohio                   ZOE LOFGREN, California
SPENCER BACHUS, Alabama              SHEILA JACKSON LEE, Texas
DARRELL E. ISSA, California          STEVE COHEN, Tennessee
J. RANDY FORBES, Virginia            HENRY C. ``HANK'' JOHNSON, Jr.,
STEVE KING, Iowa                       Georgia
TRENT FRANKS, Arizona                PEDRO R. PIERLUISI, Puerto Rico
LOUIE GOHMERT, Texas                 JUDY CHU, California
JIM JORDAN, Ohio                     TED DEUTCH, Florida
TED POE, Texas                       LUIS V. GUTIERREZ, Illinois
JASON CHAFFETZ, Utah                 KAREN BASS, California
TOM MARINO, Pennsylvania             CEDRIC RICHMOND, Louisiana
TREY GOWDY, South Carolina           SUZAN DelBENE, Washington
RAUL LABRADOR, Idaho                 JOE GARCIA, Florida
BLAKE FARENTHOLD, Texas              HAKEEM JEFFRIES, New York
GEORGE HOLDING, North Carolina       DAVID N. CICILLINE, Rhode Island
DOUG COLLINS, Georgia
RON DeSANTIS, Florida
JASON T. SMITH, Missouri
[Vacant]

           Shelley Husband, Chief of Staff & General Counsel
        Perry Apelbaum, Minority Staff Director & Chief Counsel



                            C O N T E N T S

                              ----------                              

                           SEPTEMBER 9, 2014

                                                                   Page

                           OPENING STATEMENTS

The Honorable Bob Goodlatte, a Representative in Congress from 
  the State of Virginia, and Chairman, Committee on the Judiciary     1
The Honorable John Conyers, Jr., a Representative in Congress 
  from the State of Michigan, and Ranking Member, Committee on 
  the Judiciary..................................................     2
The Honorable Jim Jordan, a Representative in Congress from the 
  State of Ohio, and Member, Committee on the Judiciary..........     4

                                WITNESS

The Honorable Michael E. Horowitz, Inspector General, United 
  States Department of Justice
  Oral Testimony.................................................     5
  Prepared Statement.............................................     7

                                APPENDIX
               Material Submitted for the Hearing Record

Supplemental Material submitted by the Honorable Michael E. 
  Horowitz, Inspector General, U.S. Department of Justice........    32
Material submitted by the Honorable Spencer Bachus, a 
  Representative in Congress from the State of Alabama...........   127


ACCESS TO JUSTICE?: DOES DOJ'S OFFICE OF INSPECTOR GENERAL HAVE ACCESS 
           TO INFORMATION NEEDED TO CONDUCT PROPER OVERSIGHT?

                              ----------                              


                       TUESDAY, SEPTEMBER 9, 2014

                        House of Representatives

                       Committee on the Judiciary

                            Washington, DC.

    The Committee met, pursuant to call, at 10:13 a.m., in room 
2141, Rayburn House Office Building, the Honorable Bob 
Goodlatte (Chairman of the Committee) presiding.
    Present: Representatives Goodlatte, Sensenbrenner, Coble, 
Chabot, Issa, Franks, Gohmert, Jordan, Chaffetz, Gowdy, 
Farenthold, Holding, Collins, Conyers, Jackson Lee, Johnson, 
and Garcia.
    Staff Present: (Majority) Shelley Husband, Chief of Staff & 
General Counsel; Branden Ritchie, Deputy Chief of Staff & Chief 
Counsel; Allison Halataei, Parliamentarian & General Counsel; 
Stephanie Gadbois, Counsel; Kelsey Deterding, Clerk; (Minority) 
Perry Apelbaum, Minority Staff Director & Chief Counsel; 
Danielle Brown, Parliamentarian; and Aaron Hiller, Counsel.
    Mr. Goodlatte. Good morning. The Judiciary Committee will 
come to order. And, without objection, the Chair is authorized 
to declare a recess of the Committee at any time.
    We welcome everyone to this morning's oversight hearing 
entitled, ``Access to Justice? Does DOJ's Office of Inspector 
General Have Access to Information Needed to Conduct Proper 
Oversight?'' And I will begin by recognizing myself for an 
opening statement.
    On August 5, 2014, 47 of 72 statutory U.S. inspectors 
general signed a letter to Congress in protest of constraints 
that have recently been imposed on access to agency records--
constraints that impeded efforts to perform oversight work in 
critical areas. The conduct of meaningful oversight by any 
Office of Inspector General depends on complete and timely 
access to all agency materials and data. As such, section 
6(a)(1) of the Inspector General Act expressly provides for 
such access.
    Restricting or delaying an inspector general's access to 
key materials in turn deprives Congress and the American people 
of timely information with which to evaluate an agency's 
performance. Limiting access, except in very narrow instances, 
is at odds with the necessary independence of inspectors 
general and is contrary to congressional intent.
    This hearing will examine whether agency components at the 
Department of Justice have undermined the OIG's independence by 
withholding, filtering, or delaying the production of essential 
records based on a novel interpretation of the Inspector 
General Act as well as restrictive readings of other statutes.
    In each of the three instances of interference we will hear 
about today, a review of agency correspondence with the OIG 
evinces a mindset that views DOJ leadership of the arbiter of 
what information the Office of Inspector General receives. It 
reveals an agency that believes the OIG must ask for and 
receive permission to review Department of Justice data and 
material and that sanctions OIG investigations as necessary to 
advance its own supervisory responsibilities alone.
    The mission of DOJ's Office of Inspector General is to 
detect and deter waste, fraud, abuse, and misconduct in DOJ 
programs and personnel and to promote economy and efficiency in 
those programs. Efforts to reduce transparency, such as those 
described by the inspectors general in the August 5th letter, 
leave agencies vulnerable to mismanagement and misconduct and 
will not be condoned.
    Although not every inspector general who signed the letter 
has experienced barriers to access, each one signed in support 
of the principle that an inspector general must have complete, 
unfiltered, and timely access to all information and materials 
available to the agency that relate to that inspector general's 
oversight activities without unreasonable administrative 
burdens.
    I welcome our witness today, the Honorable Michael 
Horowitz, Inspector General of the United States Department of 
Justice. I am pleased to have him here to describe the 
challenges he has faced and share his valuable insights so that 
we may evaluate for ourselves whether the executive branch is 
executing the Inspector General Act as Congress has intended 
and whether additional action is needed to restore 
congressional intent.
    And now it is my pleasure to recognize the Ranking Member 
of the Committee, the gentleman from Michigan, Mr. Conyers, for 
his opening statement.
    Mr. Conyers. Thank you, Chairman Goodlatte and Members of 
the Committee. I thank you for convening a hearing on this 
critical topic. We have an obligation to preserve the continued 
independence and effectiveness of the Office of the Inspector 
General at the Department of Justice.
    Inspector General Horowitz, we welcome you here before the 
House Judiciary Committee today.
    I suspect that the membership of this Committee is 
virtually unanimous in recognizing the need for vigorous 
oversight of the Department of Justice. No matter which party 
controls the executive branch, a strong and independent Office 
of Inspector General is key to protecting civil liberties, 
reining in executive overreach, safeguarding taxpayer dollars, 
and preserving the public trust.
    I have the privilege of having voted for the original 
Inspector General Act of 1978, both in the House Committee on 
Government Operations, then under the leadership of Jack Brooks 
of Texas, and subsequently on the House floor. It is my 
suspicion that I may be the only one that has done those things 
on this Committee.
    I have reviewed the 1978 Committee report accompanying the 
passage of the Inspector General Act, House Report 95-584. It 
was our intention then and remains our intention today that 
``each inspector general is to have access to all records, 
documents, et cetera, available to his or her agency which 
relate to programs and operations with respect to which the 
office has responsibilities.'' Simply put, the inspector 
general is to have complete and direct access--emphasized--to 
all of the information he or she deems necessary to conduct 
thorough and impartial investigations.
    Recent legal analysis by the FBI's Office of General 
Counsel unfortunately suggests otherwise. They reason that the 
Inspector General Act actually prohibits the FBI from sharing 
certain sensitive or confidential materials, including but not 
limited to grand jury information, Title III wiretap 
information, and consumer credit information.
    Members of the Committee, I find this analysis wholly 
unpersuasive. Nothing in the Inspector General Act authorizes 
the Department or its component agencies to refuse even these 
materials to the inspector general. Again borrowing from the 
1978 report, the act was designed to assign to each inspector 
general primary responsibility for auditing and investigative 
activities relating to programs and operations of his or her 
agency. That is a direct quotation.
    It is difficult to imagine how the Inspector General of the 
Department of Justice might conduct those auditing and 
investigative responsibilities without full access to relevant 
court documents, intelligence reports, or financial records. It 
is also difficult to imagine how the Inspector General might 
conduct effective oversight of the Department of Justice if the 
materials it requires can only be obtained with the permission 
of department attorneys.
    To be clear, the current leadership of the Department of 
Justice has taken extraordinary steps to make sure that the 
Inspector General has eventually received access to the 
material he seeks in each of the cases before us today. 
Attorney General Eric Holder and Deputy Attorney General James 
Cole are not the problem. They have both intervened personally 
on multiple occasions to overcome the FBI's objections and to 
compel production of the materials in question.
    I commend them for that leadership, but I do not know who 
will hold these posts in future Administrations. And we should 
not be willing to entrust this key oversight matter to men and 
women who may feel differently about the effectiveness of the 
Office of the Inspector General.
    In May of this year, Deputy Attorney General Cole asked the 
Office of Legal Counsel to issue a formal opinion resolving 
this dispute. I hope that Principal Deputy Assistant Attorney 
General Karl Thompson and his team will adhere to the plain 
text of the statute and to our obvious intent and grant the 
Inspector General unfettered access to every document in the 
Department's possession.
    And if the Office of Legal Counsel finds enough ambiguity 
in the law to place any limit on the Inspector General's access 
to information, then the House Judiciary should be the first to 
act to correct their mistaken impression.
    Inspector General Horowitz, we welcome and we look forward 
to your testimony today and to your assistance if a legislative 
response is indeed required.
    And I thank the Chairman and yield back.
    Mr. Goodlatte. The Chair thanks the gentleman.
    And the Chair understands that the gentleman from Ohio, Mr. 
Jordan, would like to make a brief statement----
    Mr. Jordan. Yes.
    Mr. Goodlatte [continuing]. Welcoming the Inspector 
General.
    Mr. Jordan. I thank the Chairman.
    I am just looking, Mr. Horowitz, I am looking at the letter 
that you signed along with a whole bunch of other inspector 
generals from August 5 of this year. The first paragraph talks 
about serious limitations on access to records; second 
paragraph talks about the Department of Justice recently faced 
restrictions on their access to certain records.
    I was just going to say, welcome to the club. It is 
noticeable that four of the six Republican Members here are 
also from the Oversight Committee, and I know we have a hearing 
tomorrow on this very issue. But we have been frustrated from 
the kind of response we have gotten from the Internal Revenue 
Service and, frankly, from the Department of Justice. So we 
share in your frustration, and we want to commend you for the 
work you have done. I have always been impressed with your 
service to the public and the work that you have done.
    But this is critical, and so I just wanted to say, Mr. 
Chairman, thank you for this hearing. And I want to thank Mr. 
Horowitz for his work and for being here today.
    Mr. Goodlatte. The Chair thanks the gentleman.
    Without objection, all other Members' opening statements 
will be made a part of the record.
    We thank our only witness, Inspector General Horowitz, for 
joining us today.
    And, Mr. Horowitz, if you would please rise, I will begin 
by swearing you in.
    [Witness sworn.]
    Mr. Goodlatte. Thank you very much.
    Let the record reflect that the Inspector General responded 
in the affirmative.
    On April 16, 2012, Mr. Michael Horowitz was sworn in as 
Inspector General for the United States Department of Justice. 
As Inspector General, Mr. Horowitz oversees a nationwide 
workforce of more than 400 special agents, auditors, 
inspectors, attorneys, and support staff.
    The Inspector General has enjoyed a long career in both the 
public and private sectors. Mr. Horowitz previously worked as 
an assistant United States attorney for the Southern District 
of New York from 1991 to 1999. After this, he served in the 
Criminal Division at Main Justice, first as Deputy Assistant 
Attorney General and next as Chief of Staff. Mr. Horowitz has 
also spent time working in the private sector, most recently as 
a partner at Cadwalader, Wickersham & Taft.
    He earned his juris doctor magna cum laude from Harvard Law 
School and his bachelor of arts from Brandeis University.
    Mr. Horowitz, we appreciate your presence today and look 
forward to your testimony. Your written statement will be 
entered into the record in its entirety, and we ask that you 
summarize your testimony in 5 minutes or less. Thank you, and 
welcome.

   TESTIMONY OF THE HONORABLE MICHAEL E. HOROWITZ, INSPECTOR 
          GENERAL, UNITED STATES DEPARTMENT OF JUSTICE

    Mr. Horowitz. Thank you, Mr. Chairman, Congressman Conyers, 
Members of the Committee. Thank you for inviting me to testify 
today.
    Access by inspectors general to information and agency 
files goes to the heart of our mission to provide independent 
and nonpartisan oversight. That is why 47 inspectors general 
signed a letter last month to Congress expressing their 
concerns about this issue. I want to thank the Members of 
Congress for their bipartisan support in response to that 
letter.
    The IG Act adopted by Congress in 1978 is crystal-clear. 
Section 6(a) expressly provides that inspectors general must be 
given complete, timely, and unfiltered access to all agency 
records. However, since 2010, the FBI and some other department 
components have not read section 6(a) of the IG Act in that 
manner and, therefore, refused requests during our reviews for 
relevant grand jury, wiretap, and credit information in their 
files. As a result, a number of our reviews were significantly 
impeded.
    In response to these legal objections, the Attorney General 
or the Deputy Attorney General granted us permission to access 
the records by making a finding that our reviews were of 
assistance to them. They also stated their intention to do so 
in all future audits and reviews. And we appreciate of course, 
their commitment to do that.
    However, there are several significant concerns with this 
process. First and foremost, the process is inconsistent with 
the clear mandate of section 6(a) of the IG Act. The Attorney 
General should not have to order department components to 
provide us with access to records that Congress has made clear 
we are entitled to review.
    Second, requiring the OIG to obtain permission from 
department leadership seriously compromises our independence. 
The OIG should be deciding which documents it needs access to, 
not the leadership of the agency that is being overseen.
    Third, while current department leadership has supported 
our ability to access records, agency leadership changes over 
time, and our access to records should not turn on the views of 
the Department's leadership.
    Further, we understand that other department components 
that exercise oversight over department programs and personnel, 
such as the Office of Professional Responsibility, continue to 
be given access to these same materials without objection. This 
disparate treatment is unjustifiable and results in the 
Department being less willing to provide materials to the OIG, 
presumably because the OIG is statutorily independent while the 
OPR is not.
    This disparate treatment once again highlights OPR's lack 
of independence from the Department's leadership, which can 
only be addressed by granting the statutorily independent OIG 
with jurisdiction to investigate all alleged misconduct at the 
Department. Indeed, the independent, nonpartisan Project on 
Government Oversight made the same recommendation in a report 
earlier this year, and bipartisan legislation has been 
introduced in the Senate to do just that.
    This past May, the Department's leadership asked the Office 
of Legal Counsel to issue an opinion addressing the legal 
objections raised by the FBI. Attached to my written statement 
is a summary of the OIG's legal views regarding these issues.
    It is imperative that the OLC issue its decision promptly, 
because the existing practice at the Department seriously 
impairs our independence. Moreover, in the absence of a 
resolution, our struggle to access information in a timely 
manner continues to seriously delay our work.
    It also has a substantial impact on the morale of the OIG's 
auditors, analysts, agents, and lawyers, who work 
extraordinarily hard every day. Far too often, they face 
challenges getting timely access to information, including even 
with routine requests. For example, in two ongoing audits, we 
had trouble getting organizational charts in a timely manner.
    We remain hopeful that OLC will issue an opinion promptly 
that concludes the OIG is entitled to independent access to the 
records and information pursuant to the IG Act. However, should 
an OLC opinion interpret the IG Act in a manner that results in 
limits on our ability to access information pursuant to the IG 
Act, we will request a prompt legislative remedy.
    For the past 25 years, my office has demonstrated that 
effective and independent oversight saves taxpayers money and 
improves the Department's operations. Actions that limit, 
condition, or delay access to information have substantial 
consequences for our work and lead to incomplete, inaccurate, 
or significantly delayed findings or recommendations.
    I cannot emphasize enough how critical it is to get these 
pending access issues resolved promptly. And, hopefully, OLC 
will shortly issue a legal opinion finding that section 6(a) of 
the IG Act means what it says.
    This concludes my prepared statement, and I would be 
pleased to answer any questions that the Committee may have.
    Mr. Goodlatte. Thank you, Mr. Horowitz.
    [The prepared statement of Mr. Horowitz follows:*]
---------------------------------------------------------------------------
    *See Appendix for supplemental material submitted with this 
statement.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
    Mr. Goodlatte. I will begin the questioning.
    The only explicit limitation on an inspector general's 
authority to conduct audits and investigations within its 
jurisdiction resides in section 8(e) of the Inspector General 
Act. Section 8(e) is an extraordinary exemption that provides 
the Attorney General with the authority in carefully 
circumscribed circumstances to prohibit the Office of Inspector 
General from carrying out an audit or investigation.
    To invoke section 8(e), the Attorney General must explain 
the reason for his decision in writing and make a determination 
that a limitation on an IG's exercise of authority is necessary 
to prevent the disclosure of certain specifically described 
categories of information or to prevent significant impairment 
to national interests.
    My question to you is, has Attorney General Holder at any 
time during your tenure used this formal procedure to limit 
your office's access to material essential to a review?
    Mr. Horowitz. He has not. And that is one of the arguments 
we have put forward, which is that is the mechanism Congress 
set up to limit our access if there are sensitive matters. That 
is the provision that should be used, not simply a standing 
objection to our access.
    Mr. Goodlatte. In your experience, prior to your troubling 
experiences with the three reviews that you cite in your 
testimony, had any Department of Justice component ever 
asserted the right to make unilateral determinations about what 
requested documents were relevant to an Office of Inspector 
General review?
    Mr. Horowitz. To my understanding from speaking to my 
predecessors and others in the agency, that had not happened 
before 2010.
    Mr. Goodlatte. How valuable is your authority to access 
grand jury or other sensitive material to your ability to 
execute rigorous oversight of national security matters?
    Mr. Horowitz. It is critical, Mr. Chairman. These are the 
tools of the trade for the FBI, other law enforcement agencies. 
If we can't access every piece of information in their files 
when we are doing oversight of the FBI's use of these tools in 
its handling of various national security tools, we won't know 
the full answer to what is going on.
    Mr. Goodlatte. And according to your office, the FBI's 
withholding of the grand jury information is unsupported in law 
and contrary to both the Inspector General Act and exceptions 
to the general rule of grand jury secrecy.
    Would you outline the three reasons why the Office of 
Inspector General is entitled to access grand jury material 
that the FBI claimed was privileged?
    Mr. Horowitz. Certainly.
    First and foremost, section 6(a) of the act could not be 
clearer, as Congressman Conyers just outlined in his opening 
statement. It is crystal-clear. That is the primary reason.
    But, secondarily, under the grand jury rules, prior to 
2010, we had regularly obtained grand jury material because we 
have attorneys for the government working for us. I am an 
attorney; we have a number of attorneys working on our staff. 
That would be the other exception.
    And then, third, in the national security area, there is an 
additional exception in the grand jury rules that had before 
2010 been used to get us grand jury material.
    So there are at least three reasons why we should be 
getting this material.
    Mr. Goodlatte. You testified earlier that at no time has 
the Attorney General complied with section 8(e) and given you a 
statement in writing as to why material would not be provided.
    Have you had the opportunity to have any verbal discussion 
with either he or the Director of the FBI as to why they are 
choosing not to make this material available to you?
    Mr. Horowitz. I have. I have raised my concerns with both 
of them. And the response from the Department has been most 
recently to send the matter to the Office of Legal Counsel to 
evaluate the two--the FBI's competing legal argument. And that 
is where the matter currently lies and has for several months 
now.
    And it is very important that that opinion be issued. I 
think it should be clear that we are entitled to it, but if 
there is going to be a contrary ruling, we want to know it 
sooner rather than later so that we can fix the problem and 
work with Congress to fix the problem.
    Mr. Goodlatte. Have there been any previous opinions put 
forward by the Office of Legal Counsel with regard to this 
issue.
    Mr. Horowitz. There have. And that, again, is one of our 
points, which is, in 1984, prior to our existence, which we 
came into existence in 1988, OLC issued a legal opinion finding 
that the Office of Professional Responsibility was entitled to 
access grand jury information.
    We are at a loss to understand why that same opinion 
wouldn't apply to us, given we have the same oversight 
responsibilities. And on top of that, unlike with OPR, 
Congress, again, as Congressman Conyers quite clearly laid out, 
found that we should be getting these materials and put a 
provision in law that says that.
    Mr. Goodlatte. Thank you very much.
    The Chair recognizes the gentleman from Michigan for his 
questions.
    Mr. Conyers. Thank you, Chairman Goodlatte. You have 
anticipated some of the questions I was going to ask, and I 
thank you for raising them yourself.
    Just so that we are clear, Mr. Horowitz, am I correct in 
characterizing our discussion about the correct reading of the 
Inspector General Act as nonpartisan in nature?
    Mr. Horowitz. Correct.
    Mr. Conyers. All right.
    We have in our possession several letters, written over the 
course of late 2011, from Attorney General Eric Holder and 
Deputy Attorney James Cole. In each of these letters, over the 
objection of the FBI's general counsel, the Department grants 
you access to sensitive material.
    As recently as last Thursday, in his response to your 
office's report on a material witness statute, Deputy Attorney 
General Cole again pledged, quote, to provide your office with 
access to all materials necessary to complete our reviews 
consistent with existing law.
    Are these fair descriptions of the role of the Department 
leadership in this debate?
    Mr. Horowitz. Yes. As I mentioned earlier, the Department's 
leadership has made clear they will continue to issue orders 
giving us access. And so our issue isn't with getting the 
documents; it is, frankly, the process that is laid out 
compromises our independence.
    Mr. Conyers. Have the Attorney General and Deputy Attorney 
General been helpful to you?
    Mr. Horowitz. Yes. In getting us these orders, they have 
been helpful--in issuing these orders, they have been helpful 
to us getting the access.
    Mr. Conyers. Now, as the only Member of the Committee that 
voted for the 1978 act, I agree wholeheartedly with your 
testimony. Congress meant what it said in section 6(a) of the 
act. Inspectors General must be given complete, timely, and 
unfiltered access to agency records.
    In your opinion, why did the general counsel of the FBI 
feel compelled to arrive at a different interpretation of the 
same statute?
    Mr. Horowitz. I would be speculating, frankly, as to what 
the motivation was. But I think it is clear, as you have 
indicated from looking at the opinion--and you have that; it is 
attached to my statement--that the IG Act, I think, trumps the 
arguments quite clearly.
    Mr. Conyers. Well, I hope the Office of Legal Counsel 
issues a strong opinion giving your office unequivocal access 
to the material and information that you require. And this 
Committee is going to be watching that very carefully.
    I thank the Chairman and yield back the balance of my time.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from California, Mr. Issa, the 
Chairman of the Oversight and Government Reform Committee, for 
5 minutes.
    Mr. Issa. Thank you, Mr. Chairman.
    General Horowitz, thank you for your courage. For 
inspectors general to write a letter appealing to us over the 
people who appointed them but will not let them do their job 
and to have more than half of all the IGs do so is clearly 
unprecedented. And I commend you for your courage.
    I have no doubt that this Administration will attempt 
retribution against all of you. That is their pattern. You 
won't say it, but I will. This is an Administration that 
believes justice delayed is justice given. They have delayed at 
every step.
    So although the distinguished Ranking Member is absolutely 
willing to say all the right things, he made one error. The 
fact is, there should be no commending of a man who sat in your 
chair, the Attorney General of the United States, and told us 
he wore two hats, one being a political hat, because the FBI 
does not operate in a vacuum. That information can be made 
available to you over the objections of everybody who works for 
him, and the policies that are in place are his choice.
    Now, I am going to ask you just a few quick questions, 
because you and I will be together tomorrow next-door. One of 
them is: Is there any basis, not just with your shop but with 
any of the 74 inspectors general, any of the 12,000 men and 
women, is there any basis to see that IGs have not been good 
stewards of confidential information over the many years since 
the act was enacted?
    Mr. Horowitz. We absolutely have been. We have handled in 
my office some of the most sensitive matters, including the 
Hanssen matter, including the Katrina Leung matter, including 
the 9/11 review that we did--we handled those documents 
entirely appropriately and consistently with the law.
    Mr. Issa. And isn't it a practice of the very organizations 
you see, both on the FISA side and, quite frankly, across the 
Department of Justice--FBI and all the other agencies, ATF--
isn't, in fact, one of the most important tools the clandestine 
nature of discovery? Isn't, in fact, a good FBI investigation 
often done in a way in which the target of that investigation 
is not aware that they are a target until after a substantial 
amount of information has been gathered?
    Mr. Horowitz. That is correct.
    Mr. Issa. So the very requirement for you to ask for 
access, doesn't that essentially negate the ability for you to 
look through such information as you need, and perhaps 
extraneous information, so as to not have the target always 
know you are coming and potentially thwart your investigation?
    Mr. Horowitz. It is. And I would note that in those earlier 
reviews, for example, in the Hanssen matter, we had direct 
access to the information. We didn't even have to go through 
the process that we are now going through that is creating all 
the problems that we are facing.
    Mr. Issa. And I guess one of the--I always say ``last 
question,'' and I don't really mean it, as you know. But an 
additional question is: If in fact the target knows and if your 
statutory limit is in fact only against current employees of 
the Department you are involved in, doesn't any delay cause the 
likelihood that both political and nonpolitical appointees will 
move on, either through retirement or transfers?
    Mr. Horowitz. We face that problem frequently, I have 
learned in the last 2 years, that individuals under review or 
investigation retire, move on to another job before we are able 
to complete our work. There are an innumerable number of issues 
that result from the delays that we face that are problematic.
    Mr. Issa. And just hypothetically, let's say that Congress 
is interested and sends you a letter because we are concerned 
that the people doing the Lois Lerner/IRS targeting 
investigation are in fact tainted in some way, either because 
of their conduct or some other matter, and you agree to look 
into it, isn't that a classic example where it has to be done 
timely or irreparable harm to the process occurs?
    Mr. Horowitz. There are so many reviews that we do that it 
is imperative that we be able to do them timely. And we are not 
able to do that right now in a number of our ongoing reviews.
    Mr. Issa. Well, Mr. Chairman, Mr. Ranking Member, I want to 
take a moment just to say that one of the few areas of specific 
legislative jurisdiction of the Oversight Committee is, in 
fact, the inspector generals. And it is my intention to 
conclude tomorrow's hearing and take draft legislation, which 
has been done on a bipartisan basis over the last several 
years, working with the inspector generals and with their 
oversight groups, and offer that legislation. And I hope both 
of you and your staffs will look at it ahead of time, give us 
your input.
    Because I think today's hearing here tells us that we must, 
as a body, restate some principles and make some reforms in the 
IG Act to make it clear for the next President and the next 
Administration that we really meant what that legislation said.
    And I would yield to the Ranking Member.
    Mr. Conyers. Thank you.
    Mr. Chairman, can I ask unanimous consent that the 
gentleman be given 1 additional minute?
    Mr. Goodlatte. Without objection. And I yield to the 
gentleman.
    Mr. Conyers. And I thank you very much, my friend.
    But I do not think that I am in error in commending either 
the Attorney General or the Deputy Attorney General. Because 
since 2010, when the FBI first advanced this argument, the 
leadership of the Department of Justice has bent over backwards 
to make certain that the Office of the Inspector General has 
access to every last shred of evidence it requires. Attorney 
General Holder, Deputy Attorney General Cole have intervened 
personally at least a half-dozen times.
    And I thank the gentleman.
    Mr. Issa. I thank the gentleman.
    And I would just ask Mr. Horowitz to comment on whether 
those interventions, in fact, represent the kind of timely and 
unobstructed activity, particularly when the Ranking Member 
said six times. Isn't once enough to show leadership and six 
times a pattern of obstruction that you are not able to 
overcome?
    Mr. Horowitz. I would say while the problem with the 
process, as I laid out, is significant in terms of our 
independence, it also delays our reviews, because we have to 
keep going up the chain to get to the leadership. And that is 
the continuing problem we face, which is why the leadership has 
made the decision to send it to the Office of Legal Counsel. We 
need that decision promptly. That is what we need to hear right 
away.
    Mr. Goodlatte. Thank you. The time of the gentleman has 
expired.
    The Chair recognizes the gentlewoman from Texas, Ms. 
Jackson Lee, for 5 minutes.
    Ms. Jackson Lee. Let me thank the witness for being here 
and helping us ferret through what are important issues.
    And I certainly hope that we are not on another chain of 
condemnation of the Obama administration, that we are actually 
trying to get to the facts that will help the oversight of this 
Congress and, as well, work with the IGs at various agencies. I 
understand the DOJ, EPA, and Peace Corps--certainly, Peace 
Corps shocks me, because they are humanitarians around the 
world, and we hope there is nothing that they are doing except 
sending great Americans forward to be of help.
    But let me start by saying, have you had an absolute bar to 
being able to address issues that have come to your attention? 
Meaning that there has been an absolute dropping of the iron 
gate, the steel gate, the concrete wall. What have you faced in 
trying to do the work of the IG, the Inspector General?
    Mr. Horowitz. Yeah, the issue hasn't been roadblocks to our 
undertaking reviews. The issue has been getting the information 
to timely complete them. That has been the big problem.
    Ms. Jackson Lee. And, you know, that is a distinction, to 
be very honest with you.
    Mr. Horowitz. Correct.
    Ms. Jackson Lee. I want to help you find a system that 
works. But as you well know and as I as a practicing lawyer 
previously, I will use the term ``discovery.'' And many times, 
particularly if we are in litigation against one of the big 
guys, there are several ways we can interpret discovery: one, 
that they are, in essence, roadblocking, or that the documents, 
whether it is a governmental entity, which of course, you know, 
we have immunity issues, but it is down in the bowels 
somewhere.
    So my question to you is: Is this, you know, an issue of 
getting a system that works? Because they are in the bowels--
remember, we have gone tech, but 5 years ago, 10 years ago, or 
as many of us started in the United States Congress, for 
example, we were all paper. And we packed up papers at the end 
of the session, we boxed them up, we thought we were labeling 
them, and they were somewhere in a distant--in distant mind.
    Can you discern that we are speaking of what every American 
understands, ``I filed it away somewhere, but where is it?'' 
Would you?
    Mr. Horowitz. It is a great point, Congresswoman. In fact, 
I would have to say, in many respects, we feel like civil 
litigants, where we are opposite the party that is going 
through documents and having lawyers look through documents.
    For example, at the FBI now, the process in place because 
of their legal position, that they are not sure what we are 
entitled to legally, they send all of their documents--all of 
our requests now go through their Office of General Counsel.
    Ms. Jackson Lee. And do you say they are sending them in 
good intent?
    Mr. Horowitz. They are sending it there because of their 
legal position. The result, though, is we have lawyers--like 
civil litigants, we are sitting waiting for their discovery 
reviews. We end up sometimes getting documents from them and 
then learning from witnesses documents weren't produced.
    That is the problem with this situation that has been set 
up, and it has to be resolved. And it should be resolved in a 
way that gets us access immediately, frankly. There is really 
no reason for this process to even be undertaken.
    Ms. Jackson Lee. But let me get you to--not put words in 
your mouth, but this is not seen by the IG--because I am going 
to get to the point of a solution--this is not seen in the IG 
as a malicious intent. Is this a malicious intent?
    Mr. Horowitz. No, I am not here to suggest a malicious 
intent. But the consequence of the legal argument put forward 
and the time it has taken is that our reviews go through these 
processes. And we asked for organizational charts----
    Ms. Jackson Lee. And this has gone over a series of 
Administrations. I don't know how long you have been here, but 
this has been ongoing. Whether it has been President Bush's 
administration or--there is a system in place. Is that my 
understanding?
    Mr. Horowitz. Well, on the IG's side, my understanding is 
this began in 2010. I started in 2012, but the FBI raised its 
objection in 2010.
    Ms. Jackson Lee. And this is on the FBI end of it.
    Mr. Horowitz. Correct.
    Ms. Jackson Lee. But you see no malicious intent. So the 
question is--we are holding a hearing here, and I want the 
hearing intent to be a resolution, not a condemnation.
    Mr. Horowitz. Correct.
    Ms. Jackson Lee. And so I think it is important for us to 
look--certainly, as you well know, we are not litigants, but 
litigants each have individual rights. I would have the right 
to protect my client, and, therefore, in discovery, I am going 
to make sure that I am giving precisely what is asked and not 
something that is just raiding, and you on the other side will 
be doing the same if you are representing a client.
    In this instance, we want transparent government. But, as 
well, the FBI or the EPA or those producing documents should, 
in fact, be adhering to the law. If the law is presently or a 
structure is presently in place that came in in 2010, let's see 
how we can work it better. But FBI has a right to counsel, EPA 
has a right to counsel, and you have a right to transparency.
    Am I arguing or making the point that you are now saying, 
that you need some system that allows these documents to come 
forward?
    Mr. Horowitz. Yeah, and what I am suggesting is the mindset 
has to change. In our earlier reviews, for example, the Robert 
Hanssen matter, very sensitive matter, we had direct access to 
FBI information. No one tried to interpose lawyers in that 
regard.
    We are part of the Department of Justice. We should have 
and Congress set up a system in the IG Act, as Congressman 
Conyers laid out, that says we are there to oversee them. If we 
are going to oversee the FBI, their lawyers should not be going 
through and deciding and filtering what documents we get and 
how fast we get them.
    Ms. Jackson Lee. Well, you have just given us a framework 
to be able to address. And you are from the DOJ. We don't have 
the inspectors from EPA. We don't know what their issues are, 
or the Peace Corps. And, as I said, I think of them as twinkle 
toes, to a certain extent, in terms of the work they do. But 
what I would say to you is that this is a workable--you are 
presenting facts.
    And I want to be clear, as I end my query, that--and I know 
there is a series of sections that you come under and offered 
sections going forward. As I end, could you precisely just 
give, is that your suggestion, to move that lawyer structure? 
Or could you work with a lawyer structure that will then have a 
direction that their job is to be fair and cooperative with the 
IG? Because if you remove them totally, could you work with 
that?
    Mr. Goodlatte. The time of the gentlewoman has expired. The 
Inspector General can answer the question.
    Mr. Horowitz. Thank you.
    Yes, I think the lawyers need to be removed from the 
process for routine requests. There may be issues that arise 
that require legal opinion. Right now, what is going on is 
every request goes that route.
    We should be able to get direct access to information. If a 
witness, the whistleblower, if a witness at the FBI wants to 
come to us with information, with documents, they ought to be 
able to do that directly. We shouldn't have to go make a 
request to the legal counsel, have them go look through the 
documents, and get them eventually, hopefully, but then we 
often, as I said, learn from other witnesses that there are 
more materials out there that are relevant to our review.
    Ms. Jackson Lee. Thank you, Mr. Chairman, for allowing me 
to have this query. I think that we can solve a transparent 
approach----
    Mr. Goodlatte. The time of the gentlewoman has expired.
    Ms. Jackson Lee [continuing]. Without the condemnation that 
I hope is not coming forward in this hearing. I thank the 
witness. I thank the Chairman. I yield back.
    Mr. Goodlatte. The Chair recognizes the gentleman from 
Ohio----
    Mr. Jordan. Thank you, Chairman.
    Mr. Goodlatte.--Mr. Jordan, for 5 minutes.
    Mr. Jordan. Mr. Horowitz, I just want to make sure I 
understood your last statement. Every single request that you 
are--information you are trying to get access to now goes 
through the Department of Justice's legal counsel?
    Mr. Horowitz. I am sorry, the FBI Office of General 
Counsel.
    Mr. Jordan. Their general counsel----
    Mr. Horowitz. The FBI set up that process.
    Mr. Jordan. The FBI has.
    Mr. Horowitz. Correct.
    Mr. Jordan. And you are saying that is not political?
    Mr. Horowitz. I am just--the Office of General Counsel is 
not a political appointee. They----
    Mr. Jordan. I understand that, but----
    Mr. Horowitz [continuing]. Send it through their Office of 
General Counsel and----
    Mr. Jordan. And that just happened--how long ago did that 
practice start?
    Mr. Horowitz. Within the last 2 years, 2 to 3 years. It may 
have been----
    Mr. Jordan. So since you came?
    Mr. Horowitz [continuing]. Just before I got--it may have 
been just before I came.
    Mr. Jordan. Okay.
    I mean, I am concerned about all your work, but I am 
particularly concerned about one issue that has been a focus of 
the Oversight Committee and some other Committees, and that is 
the targeting by the Internal Revenue Service of people 
exercising their First Amendment rights and, frankly, have been 
very disappointed in the criminal investigation of the Justice 
Department for a number of reasons.
    Fifteen months ago, then-FBI Director Mueller sat right in 
the chair you are sitting in, was asked three questions: Who is 
the lead agent, how many agents have been assigned to the case, 
and have you interviewed any of the victims? This is 1 month 
into the investigation, when it has been the major news story 
in the country, and his answers were: I don't know, I don't 
know, I don't know. Didn't exactly inspire confidence at that 
point.
    And then, since then, there has been early this year the 
leak by someone at Justice that no one is going to be 
prosecuted. There has been the President's now-famous comment, 
``no corruption, not a smidgen.'' And, of course, the lead 
agent, Ms. Bosserman, has maxed out contributions to the 
President's campaign and yet she is the lead agent--or, excuse 
me, not agent, but lawyer on the case.
    So, in the second paragraph of this letter you signed, I 
think with 46 other inspector generals, it says this: ``The 
Department of Justice faced restrictions on their access to 
certain records available to their agencies that were needed to 
perform their oversight work in critical areas.''
    So I want to know, what were those critical areas? Were you 
denied access to oversight work in critical areas? Was any of 
those critical areas related to the situation at the Internal 
Revenue Service and the criminal investigation that is going on 
there? Any inquiries in that subject matter that you were 
denied access to?
    Mr. Horowitz. No, that is not an area that I was referring 
to in my----
    Mr. Jordan. Anything related to that at all? I know we have 
asked you to look into certain things. We have asked you 
specifically, I think, to look into the fact that Ms. Bosserman 
was selected to sort of head up this investigation. So you were 
not denied--you didn't face any restriction or denied access to 
any information regarding that?
    Mr. Horowitz. We have not faced any document restrictions 
with regard to that matter.
    Mr. Jordan. So, changing gears a little bit then, one of 
the other issues that we were very nervous about, brought to 
our attention a few months ago, was the fact that the Internal 
Revenue Service gave 21 disks of information to the FBI 
regarding the targeting issue. That information was given to 
the FBI in 2010, 1.1 million pages. Some of that information 
contained 6103 confidential taxpayer information, donor 
information.
    Are you aware of that issue, Mr. Horowitz?
    Mr. Horowitz. I am, from the news stories and various 
letters.
    Mr. Jordan. Has your office looked into that at all just in 
any type of elementary way or examined any of that information 
at all?
    Mr. Horowitz. We try not to talk about matters that are 
nonpublic in our office and what we might look at or we might 
not be looking at.
    Mr. Jordan. Well, let me ask you this way. Are you 
concerned about the fact that the Justice Department, 
specifically the FBI, had confidential taxpayer information and 
they had it for 4 years?
    Mr. Horowitz. Yes, I have noted that information and taken 
note of it.
    Mr. Jordan. Okay.
    Last question, then. Just to be clear, though, none of the 
access you were denied, information you were denied in your 
oversight work dealt with the Internal Revenue Service?
    Mr. Horowitz. That is correct.
    Mr. Jordan. Okay.
    Mr. Chairman, I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from Utah, Mr. Chaffetz, for 5 
minutes.
    Mr. Chaffetz. I thank the Chairman and thank the Inspector 
General. I appreciate his work and his efforts.
    And I had the pleasure to interact with you on several 
different occasions. And you play a vital role in our system of 
checks and balances, and we wish you nothing but success and 
want to make sure that your efforts are unimpeded.
    And so I want to ask you some questions, though, about 
Operation Fast and Furious. Part of the indication from the 
Attorney General was that he could not answer questions, would 
not provide more information to the public, in part because the 
Inspector General was doing a review.
    How do you summarize your ability to access information 
regarding Fast and Furious?
    Mr. Horowitz. We had difficulty--and this occurred just 
before I arrived, and, of course, then I picked up the 
investigation----
    Mr. Chaffetz. Right.
    Mr. Horowitz [continuing]. But we had difficulty just 
before I arrived in gaining access to the grand jury 
information, because, as you know, Fast and Furious raised a 
number of prosecutive issues, as well as Title III information. 
As our report made public, there were numbers of wiretaps. We 
had difficulty obtaining both of those in a timely fashion 
because of the objections raised by components to providing it 
to us, because they did not read section 6(a) of the act as 
giving us authority to look at that information.
    Mr. Chaffetz. So what percentage of the information could 
you actually see?
    Mr. Horowitz. I am not sure I could put a number on it, 
frankly, because I wasn't here at the time, I wasn't the IG at 
the time that these requests were going on. But I do know there 
was a fair amount of information that was potentially grand 
jury information.
    Mr. Chaffetz. And your interpretation is you should be able 
to--talk specifically about grand jury information and then 
also about----
    Mr. Horowitz. So I think it is quite clear, in the first 
instance, that section 6(a) in the IG Act means we should have 
unfiltered, timely access to all records. The agency doesn't 
get to pick and choose. So that would be the first basis.
    The second is we have always gotten grand jury information 
up till 2010 from the FBI and other department components 
either through the IG Act or through one of the exceptions in 
the grand jury law, which has an exception for attorneys for 
the government. I am an attorney, we are attorneys for the 
government, I work for the Department of Justice. That should 
be, I think, self-evident, but that apparently has not been how 
it has been interpreted by the FBI.
    Mr. Chaffetz. And how many people report to you in your 
group? How many IGs are you overseeing?
    Mr. Horowitz. My office has over 400 employees.
    Mr. Chaffetz. And so the process now, they are having to go 
and ask permission? From who is it that they are--specific to 
the FBI, who are they having to ask permission from?
    Mr. Horowitz. So what happens now is we send our requests--
because we don't have unfiltered access, we now have this 
review going on between our requests and us getting the 
documents. We make a request. The FBI, the Office of General 
Counsel, looks at it. And if it has an objection, it raises an 
objection, and then we start this process going.
    Mr. Chaffetz. And what are the so-called objections? What 
are their excuses as objections?
    Mr. Horowitz. Well, we have had the grand jury objection. 
We have had objection to wiretap information, to Fair Credit 
Reporting Act Information. We also had during the course of our 
review an objection raised to personally identifiable 
information, for which there was no basis for an objection, but 
it took months before it got sufficiently elevated and the FBI 
withdrew its objection and we got the materials.
    Mr. Chaffetz. Now, at one point, there was an objection 
about an organizational chart? Can you tell----
    Mr. Horowitz. Correct.
    Mr. Chaffetz [continuing]. Me about that?
    Mr. Horowitz. In two of our reviews, that has come up.
    One of the audits, an FBI-related matter relating to cyber, 
our review on cyber, the witness we were speaking with was 
prepared to hand us the organizational chart that we asked for, 
but we were told he couldn't do that because it had to go 
through this process at the Office of General Counsel to review 
it, and so we were delayed for weeks. I actually had to send an 
email to the General Counsel saying, I don't understand how 
this can be the case.
    Mr. Chaffetz. A simple organizational chart.
    Mr. Horowitz. A simple organizational chart.
    In addition, recently, with the DEA, we requested an 
organizational chart. We got an organizational chart with names 
whited out. We then went back and said, well, we need the 
names, because one of the purposes is to see who we need to 
interview. And we then got a makeshift, unofficial 
organizational chart with names. I had to elevate that to the 
Administrator in order to get the organizational chart we were 
looking for.
    Mr. Chaffetz. Mr. Chairman, I am so glad we are holding 
this hearing, glad we are doing so in the Oversight and 
Government Reform Committee tomorrow, as well. This is 
outrageous. The Inspector General should have unfettered access 
to all the information they want. And when it has gotten to the 
point where they can't even see an organizational chart, it has 
reached the level of absurdity that must be addressed 
immediately.
    I appreciate the bipartisan notion on this, and I yield 
back. Thank you.
    Mr. Goodlatte. Would the gentleman yield.
    Mr. Chaffetz. I would be happy to yield.
    Mr. Goodlatte. The gentleman's point is well taken, because 
not only does the organizational chart give an indication of 
who they need to talk to, it also gives an indication of who 
should be held accountable. And accountability is, I think, a 
very serious issue in any government, but it is certainly an 
issue with this government.
    At this time, it is my pleasure to recognize the gentleman 
from North Carolina, Mr. Holding, for his questions for 5 
minutes.
    Mr. Holding. Thank you, Mr. Chairman.
    In a limitation that is unique to DOJ, the Department's OIG 
does not have authority to investigate all allegations of 
misconduct within the agency. So, while the OIG may review 
alleged misconduct by nonlawyers at DOJ, under section 8(e) of 
the IG Act, it does not have the same jurisdiction over alleged 
misconduct by DOJ attorneys when they are acting, you know, as 
lawyers in the Department.
    If you could explain for us, you know, how this distinction 
came about and kind of how the process works.
    Mr. Horowitz. This is really a historical anomaly. It is 
because of the fact that OPR existed before we did in 1988, and 
when our office was created in 1988 by Congress, they decided 
at that time to keep OPR in existence and have this 
jurisdictional limitation so that all matters went to OPR, the 
argument being that for many years OPR had experience doing 
these matters and so they should have authority.
    We are 25 years later now. We have been given authority 
over misconduct by all the other parts of the Justice 
Department. We have exercised that appropriately, effectively, 
and, most importantly, independently. It is time for us to have 
authority over all misconduct. There is no reason that agents' 
alleged misconduct should be reviewed by the OIG but attorneys 
get to go to a nonstatutorily independent body for their 
conduct to be reviewed.
    Mr. Holding. So are you advocating, I guess, for--if you 
are advocating for that, would OPR continue to have any role at 
DOJ, or are you saying it is past its usefulness?
    Mr. Horowitz. I think that would obviously be a decision 
Congress would need to make, but in the past when Congress has 
created these situations, they have kept in place, for example, 
the FBI's OPR. And what has happened now is we have right of 
first refusal. So we take the most sensitive cases, the cases 
where there needs to be independent review, where there is 
criminal conduct alleged, where there are high-level officials 
involved, and OPR for DEA, FBI, the Marshals Service, et 
cetera, handled the other matters.
    That could stay as the process, or Congress could decide 
that we should have all attorney misconduct, no matter who or 
what it is alleged to have done.
    Mr. Holding. Right.
    In addition to OPR, there is the DOJ's National Security 
Division Oversight Section, as well. And as you have put 
forward in your testimony, they are provided access to the 
information that the OIG has had trouble accessing, you know, 
despite the language of the statute.
    So what is your understanding as to why DOJ leadership is 
more forthcoming with these documents and materials to these 
other entities as opposed to OIG?
    Mr. Horowitz. Our presumption is because we are independent 
and they are not. And so there appears to have been a 
conclusion that there indeed does need to be a finding that our 
reviews are of assistance to the leadership. It is self-evident 
for the other entities--OPR, NSD--because they are working for 
the leadership. We are statutorily independent; Congress set it 
up that way. And, therefore, it would appear the decision has 
been made that somehow we need to go through this process so 
that it is clear our reviews are being overseen or are being of 
help to the leadership. And, of course, that is entirely 
inconsistent with what Congress has set up in the IG Act.
    Mr. Holding. All right. Thank you.
    Mr. Chairman, I yield back.
    Mr. Goodlatte. The Chair thanks the gentleman and 
recognizes the gentleman from Texas, Mr. Gohmert, for 5 
minutes.
    Mr. Gohmert. Thank you, Mr. Chairman.
    And thank you, Inspector General. Appreciate your being 
here, and we appreciate your candor and your efforts at trying 
to get records.
    We had the Attorney General testifying here early during 
his tenure as Attorney General, and there was a reference about 
how close he was to--that he made--about how close he was to 
the Inspector General at the time. That caused me concern, 
because I had hoped that there was more independence from an 
inspector general. Nobody is supposed to be an inspector 
general and be big buddies with the Attorney General, although 
he has called me his buddy. I take that as a term of 
endearment, even though he said it, ``You don't want to go 
there, buddy.''
    But we never intended for you to have trouble, have any 
impediment to getting documents.
    And just so you are aware, Mr. Horowitz, for almost all of 
this Administration, I have been seeking the documents that the 
Justice Department gave to the defendants in the Holy Land 
Foundation who were convicted of supporting terrorism. This 
Attorney General has used such lines as, you know, 
classification issues, things like that when, actually, it is 
very clear, if you give documents from the Justice Department 
to terrorists, who are convicted, then it is probably okay to 
give them to Congress, and yet still, the most that I have been 
able to get after all these years is a notice that I can go 
online and check out some Web sites that have some of the 
documents that were admitted.
    So I share your pain in trying to get information from this 
Administration that should have been a slam dunk. Very easy. 
Just give me disks, give me the papers, whatever. I have been 
through boxes, I have been through, you know, masses of CDs as 
a judge and a lawyer.
    So what do you think we can do? Just the top thing that 
this Congress could do--well, put it this way, the House could 
do to make your job easier and make your position more 
effective?
    Mr. Horowitz. I think, frankly, the----
    Mr. Gohmert. The number one.
    Mr. Horowitz. Given where this is at OLC right now, I think 
having comments by the Ranking Member about the intent of 
Congress and pressing for an answer to the question by Congress 
on does section 6(a) of the IG Act that Congress passed mean 
what it says. That is the number one issue we are waiting to 
get an answer to right now.
    Mr. Gohmert. All right. Well----
    Mr. Conyers. Gentleman yield?
    Mr. Gohmert. Yes.
    Mr. Conyers. I just wanted to invite you to join with me in 
this endeavor, because I think you are interested in and have 
learned a lot about it.
    Mr. Gohmert. Well, and would certainly be willing if--I 
would think that a sense of the House might be what we should 
try to pass as quickly as possible to make clear about our 
bipartisan belief in the importance of inspector general, and I 
very much appreciate the Ranking Member, the former Chairman, 
understanding that this should be a bipartisan issue because we 
change majorities, the White House changes, but we have got to 
make sure inspectors general can get the information they need. 
So I very much appreciate the Ranking Member----
    Mr. Conyers. Thank you. I look forward to working with you.
    Mr. Gohmert. Mr. Horowitz, you don't have to come back here 
for a hearing to seek individual assistance in your job. Any of 
us that can help--I know all of us, I know the Chairman, any of 
us would be willing to assist in any way. You let us know what 
we can do. It is critical for any democratic republic, as this 
is supposed to be, to function efficiently if an inspector 
general cannot get direct access to the information he needs. 
So thank you for being here today.
    Mr. Horowitz. Thank you, Congressman.
    Mr. Goodlatte. Chair thanks the gentleman and recognizes 
the gentleman from Texas, Mr. Farenthold, for his questions for 
5 minutes.
    Mr. Farenthold. Thank you, Mr. Chairman.
    Mr. Horowitz, thank you for being here.
    As a Member of this Committee and the Oversight and 
Government Reform Committee, I am acutely aware of the benefits 
that the inspector general community throughout government 
provide to the citizens of this country. You are the first line 
of watch dogs right there with the whistle blowers that combat 
waste, fraud, and abuse in the government.
    The idea behind inspector generals were they worked within 
the agency, but they were independent. So they understood how 
the agency worked. They felt like there would be less 
reluctance of the agencies to share information with the IG for 
internal investigations and the like.
    But the stuff we have been talking about and hearing about 
today has taken this into politics, and that is where I think 
the trouble is. Again, one of the advantages of the IG is they 
are within the organization so ostensibly nonpartisan. I mean, 
that is the intent, and, you know, rather than having Congress 
subpoena a bunch of documents and do an investigation ourselves 
where politics get infused in it, a lot of stuff can be taken 
care of by the IGs within the agencies.
    But this situation seems politicized. Would it be--is that 
the sense that you get? Thereis a political element to this?
    Mr. Horowitz. You know, from our standpoint, what we have 
seen is simply, in lots of different reviews, objections being 
raised. No one has said to us that it is being done maliciously 
or for other reasons. I will let others decide, you know, how 
this all came about and why.
    Mr. Farenthold. Well, it has certainly been my experience 
in trying to pry information out of this Administration that 
delay, stonewall, and, quite frankly, when dealing with the 
IRS, outright lie seems to be the rule of the day, and 
eventually, you know, some of these--you all got some of the 
documents that you all were after, but this was only after the 
leadership in the DOJ determined that they were positive, and, 
again, this points to politicism of it. And I guess I don't 
have another question. I just want to express publicly and on 
the record my dismay at the dismantling of what I think has 
been one of the most effective oversight and reform tools 
within the government, the inspector general, as being coopted, 
and, in my opinion, politicized and misused. It is a horrible 
indictment of an Administration that early on said they wanted 
to be the most transparent Administration in history, and, 
clearly, that has not been the case, and this is just another 
example of it, and I struggle not to be numbed by it. It is 
like we have another scandal that comes out every 2 weeks, any 
one of which would have had folks' head exploding not that many 
years ago, and it is disheartening, and I am going to yield 
back the remainder of my time. Thank you.
    Mr. Goodlatte. The Chair thanks the gentleman.
    Recognize the gentleman from Georgia, Mr. Collins, for 5 
minutes.
    Mr. Collins. Thank you, Mr. Chairman.
    As coming back in, we get a lot of things going on, but I 
am glad you are here, and, I mean, it is really good.
    Serving on Oversight and as well as Judiciary, the 
importance of what you do is really amazing to the government. 
I wish we actually had more work in this way.
    And I think, you know, from my folks in the district of 
Georgia, we were just basically stunned to learn that you don't 
have access to information that, frankly, I as an attorney, but 
others as well, believe you are entitled to.
    Leading up to the letter, leading up to the issues, based 
on your experience is, it particular people? Is it some body? 
Is it just an agency culture under this, you know, environment 
and this agency leader? What do you think led up to the 
necessity for them to write this letter and say, you know, we 
don't think you are getting the access that you need?
    Mr. Horowitz. Yeah. This all began a couple years before I 
became IG, but there had been a series of reports that we 
issued and reviews that we issued that were critical of some of 
the handling of some matters. This followed shortly thereafter. 
And what happens once this begins, is we start to see this 
among other components and in more regular reviews, and the 
road blocks become more regular, and that is the problem with 
not resolving it and dealing with it promptly.
    Mr. Collins. Well, and I think, just one, it gives the 
impression if you are--you know, especially the government-to-
government kind of--if you are roadblocking yourself, it is 
like there is something--and, frankly, it just leaves the 
opinion you are hiding something, and that is just the way it 
looks.
    Your view of the department's use of material witness 
statute, which was published this past Thursday, reports that 
the FBI conducted a page-by-page preproduction review of all 
documents requested by the OIG and said it redacted anything it 
considered to be grand jury material. As a result, the review 
states, Documents were not useful, and the review came to 
standstill. While the Deputy Attorney General ultimately 
granted you access to certain documents under the foreign 
intelligence exception of the Federal Rules Criminal Procedure, 
this avenue was not without its delays.
    How long did the OIG have to wait for the grand jury 
material in all?
    Mr. Horowitz. It took us almost a year, from start to 
finish, to get the material we asked for in terms of 
completeness of the process.
    Mr. Collins. And there was really, at this point, no reason 
for that year's delay?
    Mr. Horowitz. There was no reason.
    Mr. Collins. Okay.
    Mr. Horowitz. From our standpoint, certainly.
    Mr. Collins. Okay. So, basically, again, we are stopping, 
hiding, whatever you want to call it something--because--
because, frankly, if you are going to stick with a story, it is 
like I have told my kids: If you are going to lie once, you--or 
start telling stories once, then you are going to have to tell 
the story the whole way through.
    Mr. Horowitz. Right.
    Mr. Collins. And now, they are coming back and now giving 
you the information when they first said they couldn't.
    Mr. Horowitz. Right. And--and I will add, on top of the 
delay to our review, you have a whole bunch of lawyers at--in 
the FBI, who have a lot of things on their plates, spending 
time going through page by page documents we should be getting. 
You have my auditors and teams, lawyers, et cetera, being put 
on hold, not being able to complete the work. So thereis waste 
along with it. It is not only the delay. There's this wasted 
resources that are going on.
    Mr. Collins. I understand, and I think that is another 
whole issue is we got to deal with is wasted resources when we 
are in an environment where we are trying to find every, you 
know, penny we can to properly use taxpayer dollars.
    Also, according to that report, while they are waiting for 
a DOJ attorney to produce the grand jury material, the FBI was 
busy redacting several other categories of information from 
documents it was providing to you.
    What information was that, and what was their rational?
    Mr. Horowitz. Well, the FBI would come to us with a list of 
areas that it had concerns about producing, and so we ended up 
having to negotiate and discuss with them a whole variety of 
categories beyond that before we could get what we thought was 
complete, but, again, since they are controlling the process 
and we are not getting direct access, we are relying on their 
interpretation of these statutes and whatis relevant and not 
relevant.
    Mr. Collins. And, again, not you know, to disparage in a 
large sense, but in the sense, we are looking at an 
investigation here that is coming internally as something that 
should be worked together on and not pitting, you know, us 
against them or--this is just an honest, truthful mentality. 
What are we doing? We just got back off a working period in 
which we were--I was in three town halls that is the biggest 
thing that I hear from most of our folks is they just--they 
don't trust the government anymore, and I made many discussions 
about this. They would come up and they would say, you know, 
what can we do? We have got to restore trust, and part of this 
trust factor is going to our own inspector general process, 
going to our own internal checklist and making sure that we are 
not, for just the sake of what I call busy work, doing that.
    You know, and the letter was courageous. I mean, I think 
there is a lot of things that could be happening. In my short 
amount of time here real quickly, other than the hearings and 
bringing this--and I appreciate the Chairman for doing this, 
what action do you hope Congress will take in response to what 
has been brought forth today and what we have talked about?
    Mr. Horowitz. I think the kind of the statements and 
message that has been put forward by the Ranking Member today, 
who talked about what happened back in 1978, but other 
statements, for example, in 1988 and in the 1993 reform, as to 
the--our office, what was meant by ``accessed information''? 
Did Congress intend us, when it gave us authority in the early 
'90's, to oversee the FBI and the DEA, that we should actually 
be able to look at all the records in their files like grand 
jury and Title III information. The answer has to be yes; 
otherwise, giving us that authority would be largely 
meaningless.
    Mr. Collins. Well, I think you summed it up very well, and 
I thank the Chairman for bringing this and the Ranking Member 
to be a part of this, because if you don't have access, then 
basically we are telling the American people we are doing 
something we are not doing, and has got to step to this trust 
issue. Americans demand more. We have got to be accountable and 
transparent to that.
    I thank you for what you do.
    And with that, Mr. Chairman, I yield back.
    Mr. Goodlatte. Chair thanks the gentleman.
    The Chair has one additional follow-up question, and then I 
will check with the Ranking Member, see if he has any 
additional questions hewould like to ask.
    The FBIhas argued that based on its interpretation of 
section 6(b)(2) of the Inspector General Act, it has the 
authority to refuse your requests--Office of Inspector General 
requests for documents so long as it deems its refusal to be, 
quote, ``reasonable.''
    Will you explain the basis for this conclusion by the FBI 
and your opinion as to whether thereis any merit to that 
position?
    Mr. Horowitz. Yeah. Frankly, I don't think it has any 
merit. I think Congress quite clearly put in place in section 
8(e) of the act the process that is to be followed if there are 
sensitive documents that shouldn't be disclosed to the IG or 
the IG shouldn't be able to disclose publicly. That leaves that 
power with the Attorney General, not with anybody else in the 
organization, and so we disagree entirely with that.
    Mr. Goodlatte. And where does that phrase ``reasonable'' 
emanate from? Do you know.
    Mr. Horowitz. I think that is their interpretation of the 
IG act.
    Mr. Goodlatte. Thank you.
    Mr. Conyers. Mr. Chairman, I have no additional questions.
    I want to thank again the Inspector General for his very 
thorough and complete testimony today.
    Mr. Goodlatte. And I want to join you in thanking Mr. 
Horowitz for his testimony, and we will work together in a 
bipartisan way to make sure that anything the Congress can do 
to bolster your ability to conduct neutral investigations into 
how our government, under any leadership, operates. I think it 
is important to set the precedent correctly, as we did in 1978, 
and if we need to reinforce that today, we will do so.
    So I thank the gentleman, and this concludes today's 
hearing. And we thank the Inspector General for joining us.
    Without objecting, all Members will have 5 legislative days 
to submit additional written questions for the witness or 
additional materials for the record.

    And this hearing is adjourned.

    [Whereupon, at 11:21 a.m., the Committee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

 Supplemental Material submitted by the Honorable Michael E. Horowitz, 
             Inspector General, U.S. Department of Justice

                              ATTACHMENT 1

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                              ATTACHMENT 2

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                              ATTACHMENT 3

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                              ATTACHMENT 4

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                              ATTACHMENT 5

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



          Material submitted by the Honorable Spencer Bachus, 
         a Representative in Congress from the State of Alabama


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
